<html>
<title> - PROVIDING NECESSARY FLOOD PROTECTION TO PROTECT COASTAL COMMUNITIES</title>
<body><pre>[Senate Hearing 114-39]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 114-39
 
                  PROVIDING NECESSARY FLOOD PROTECTION
                     TO PROTECT COASTAL COMMUNITIES

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON TRANSPORTATION 
                           AND INFRASTRUCTURE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                     MAY 15, 2015--NEW ORLEANS, LA

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________





                       U.S. GOVERNMENT PUBLISHING OFFICE
94-996 PDF                WASHINGTON : 2015
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>  










               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                              ----------                              

           Subcommittee on Transportation and Infrastructure

                   DAVID VITTER, Louisiana, Chairman
JOHN BARRASSO, Wyoming               BARBARA BOXER, California
SHELLEY MOORE CAPITO, West Virginia  THOMAS R. CARPER, Delaware
MIKE CRAPO, Idaho                    BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
JEFF SESSIONS, Alabama               SHELDON WHITEHOUSE, Rhode Island
ROGER WICKER, Mississippi            JEFF MERKLEY, Oregon
DEB FISCHER, Nebraska                KIRSTEN GILLIBRAND, New York
JAMES M. INHOFE, Oklahoma (ex 
    officio)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 15, 2015
                            WITNESS PANEL 1

Hansen, Colonel Richard, Commander, New Orleans District, U.S. 
  Army Corps of Engineers........................................     1
    Prepared statement...........................................     5

                            WITNESS PANEL 2

Monzon, John R., P.E., M. ASCE, Regional Director, Southeast 
  Louisiana Flood Protection Authority--West.....................    15
    Prepared statement...........................................    18

Murphy, Todd P., President, Jefferson Chamber of Commerce........    21

Turner, Robert A., P.E., CFM, Regional Director, Southeast 
  Louisiana Flood Protection Authority--East.....................    22
    Prepared statement...........................................    25

Laska, Shirley, Ph.D., Professor Emerita, University of New 
  Orleans........................................................    40
    Prepared statement...........................................    43

                          ADDITIONAL MATERIAL

Statement of Dr. Ariana Sutton-Grier, University of Maryland.....    52


  PROVIDING NECESSARY FLOOD PROTECTION TO PROTECT COASTAL COMMUNITIES

                              ----------                              


                          FRIDAY, MAY 15, 2015

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                   New Orleans, LA.
    Senator Vitter. At this point, we're going to move to our 
witnesses, to sort of the Field Hearing portion of the program, 
so let me invite Colonel Hansen to come up. He is our first 
panel, sort of the Federal panel, and then after a discussion 
with Colonel Hansen, we will have another panel of witnesses.
    Colonel Richard Hansen is the District Commander and 
District Engineer of the U.S. Army Corps of Engineers here in 
the New Orleans District. He became that 62d District Commander 
on May 23rd, 2013, and on assuming command, he became 
responsible for one of the largest civil works programs in the 
country at over $300 million annually.
    Colonel Hansen is in charge of executing and maintaining 
South Louisiana's Comprehensive and Integrative Flood Control 
Ecosystem Restoration and Hurricane and Storm Damage Risk 
Reduction Projects, which we were talking about earlier.
    Colonel, welcome, and thanks for your work and thanks for 
your testimony today.

  STATEMENT OF COLONEL RICHARD HANSEN, COMMANDER, NEW ORLEANS 
             DISTRICT, U.S. ARMY CORPS OF ENGINEERS

    Colonel Hansen. Thank you, Chairman Vitter, and the members 
of the subcommittee. Again, I am Colonel Richard Hansen, 
Commander of the U.S. Army Corps of Engineers, New Orleans 
District.
    Thank you for this opportunity to provide a status on the 
construction and maintenance of systems to reduce the risk 
associated with extreme coastal weather events.
    I'd like to provide you with an update on the progress and 
status of our efforts during the last 10 years, the remaining 
work, and the coordinated efforts of the U.S. Army Corps of 
Engineers and its Federal, State and local partners, to ensure 
that we are prepared and ready to respond during the 2015 
hurricane season. I will begin with a discussion of the 
response following Hurricane Katrina.
    Immediately following Hurricane Katrina, the Corps assessed 
the damages from the storm, and working closely with State and 
other Federal agencies, took a comprehensive look at the 
organization to determine how best to improve our approaches to 
storm risk reduction. We incorporated the lessons learned from 
that assessment into our design criteria, construction 
techniques, as well as our preparedness and response 
procedures.
    The results included addressing risk reduction with more 
robust designs, use of cutting edge science and technology, 
incorporation of better materials, gaining insight from local, 
national and international experts in building a robust 
emergency preparedness and response network.
    Additionally, the passage of supplemental appropriations 
totaling over $14 billion represented full up-front funding for 
protective measures in Southeastern Louisiana. This allowed the 
Corps to efficiently design and construct this multifaceted 
system in one of the Nation's most complex environments.
    The Corps has strengthened or improved nearly 133 miles of 
levees, floodwalls, gated structures and pump stations to form 
a perimeter system.
    Construction of features, such as the Inner Harbor 
Navigation Canal Surge Barrier in Lake Borgne, the Seabrook 
Floodgate Complex, closures at the mouths of the three outfall 
canals, and the Gulf Intracoastal Waterway West Closure 
Complex, have pushed the line of defense outside the city and 
removed almost 70 miles of interior levees and floodwalls from 
exposure to storm surge.
    We have provided the necessary data to the Federal 
Emergency Management Agency and they are currently revising 
their Flood Insurance Rate maps to reflect the system as being 
accredited to defend against the 100-year storm surge event, or 
a storm that has a 1 percent chance of occurring in any given 
year.
    It is with confidence that I appear before you today and 
state that the level of storm damage risk reduction in the New 
Orleans metropolitan area has never been greater.
    Each day this risk is even further reduced as we push to 
complete the final remaining features of the system. I'd like 
to highlight a couple of the endeavors currently under way, 
specifically, the construction of the Permanent Canal Closures 
and Pumps and the current effort to improve system resiliency 
through levee armoring.
    In June 2013, we initiated construction of the Permanent 
Canal Closures and Pumps, the system's final major structural 
complex. Since that time, we have made substantial progress. As 
of this month, the design is nearly 94 percent complete, and 
construction and procurement are 57 percent complete.
    We are on schedule to be complete at 17th Street, Orleans 
Avenue and London Avenue during the 2017 hurricane season. Once 
complete, the three new structures will be a sustainable 
replacement for the interim closure structures that currently 
provide the 100-year level of risk reduction.
    These new stations combined will have a total pumping 
capacity of nearly 182,000 gallons per second. Additionally, 
adaptability has been incorporated into the design for the 
structures, should other options be authorized and funded for 
construction in the future.
    Until these permanent features are complete, the Corps is 
committed to ensuring that the interim closure structures will 
perform as designed through a comprehensive operations and 
maintenance program.
    I'd also like to highlight our armoring program work. One 
of the lessons learned from Hurricane Katrina is the need for 
greater resiliency in the system. In terms of elevation, the 
system is designed to defend against surge levels associated 
with a 100-year level storm. We also understand that it is 
necessary to build a level of resiliency so that the system 
will withstand the impacts of overtopping from an even more 
intense storm.
    To date, we have awarded five task orders for the placement 
of high performance turf reinforcement matting on earthen 
levees in the system.
    Since 2006, the Corps has continued to incorporate lessons 
learned from Hurricane Katrina and improve how we do business, 
not only in design and construction of the HSDRRS, but also in 
operational and contingency planning.
    In partnership with Federal, State and local leaders, we 
conduct annual structural assessments of the system. In 
conjunction with each hurricane season, the Corps and its 
partners operationally test all major structures and conduct 
joint hurricane exercises here in New Orleans, as well as at 
our Division Headquarters in Vicksburg, Mississippi.
    The purpose of the exercises is to test the well-planned 
command and control procedures, our technical steps for 
responding to a storm event, the procedures and triggers for 
closing and reopening major structures, as well as the 
partnership and synchronized efforts among Federal, State and 
local agencies.
    Our partners in these extensive planning efforts are the 
U.S. Coast Guard, the Coastal Protection and Restoration 
Authority, the New Orleans Sewerage and Water Board, the 
Jefferson Parish Drainage Department, the Governor's Office of 
Homeland Security and Emergency Preparedness, the Southeast 
Louisiana Flood Protection Authorities, and their supporting 
districts, and the Louisiana Department of Transportation and 
Development.
    The first of these field tests for this hurricane season 
was successfully conducted by the Southeast Louisiana Flood 
Protection Authority--West on April 30, 2015.
    As I meet with stakeholders, partners, media and the 
public, I am often asked about my greatest concern and 
vulnerability in the system. My greatest concern and what could 
also be considered a vulnerability is the risk of complacency 
of residents because this monumental system is now in place.
    No matter how high or how big we build, no system can fully 
eliminate risk. And it's because of this residual risk that we 
continue to communicate with the general public in an open and 
transparent manner.
    Each year, the Corps and all of our regional partners come 
together for an event at the start of hurricane season to 
collectively emphasize shared responsibilities at all levels.
    And it's important that everyone has an emergency 
evacuation plan in place. Listen to your local officials and 
evacuate if an order is called. This event, this press 
conference, will be scheduled for May 27, 2015.
    Again, we're fully confident that the Hurricane and Storm 
Damage Risk Reduction System will perform as designed just as 
it did during Hurricane Isaac.
    Today, the system is in great shape and our non-Federal 
partners are doing a tremendous job with their operations and 
maintenance programs to keep the system prepared for response 
to a tropical weather event.
    So, in closing, we are meeting the Nation's commitment to 
the citizens of Southeast Louisiana. We accomplish this by 
sharing responsibility and working collaboratively, relying 
heavily on our non-Federal partners, and on extensive 
collaboration with the general public.
    I must emphasize that the Corps absolutely could not have 
done this work on its own. It was a team effort among Federal, 
State and local government, levee authorities, levee boards, 
academia, industry, non-government organizations, peer 
reviewers and other stakeholders.
    Any additional work that is needed to reduce risk in 
coastal Louisiana should consider all methods of risk 
reduction: land use zoning, building codes, flood insurance, 
evacuation plans, hazard mitigation plans, wise use of flood 
plains, structural, and the appropriate combination of other 
non-structural measures.
    The Corps is working on numerous civil works projects to 
support navigation, ecosystem restoration, and flood risk 
management in coastal Louisiana.
    Recently, we executed a cost share agreement with the 
Louisiana Department of Transportation and Development to 
evaluate the feasibility of deepening the Mississippi River 
from Baton Rouge to the Gulf of Mexico, as well as an agreement 
with the Port of Lake Charles to implement the Dredge Material 
Management Plan, which will provide additional placement 
capacity to allow the continued maintenance dredging of the 
Calcasieu Ship Channel.
    For coastal restoration, we have partnered with Plaquemines 
Parish to begin construction of the first Louisiana Coastal 
Area Beneficial Use of Dredged Material Project, which will 
create and restore marshlands in West Bay, with material 
dredged, as part of our Mississippi River Maintenance Program, 
and it will also provide a natural buffer against future 
coastal storms.
    Finally, we are also working on additional flood risk 
management efforts, such as the Comite River Diversion Project 
in the Baton Rouge area and the Southwest Coastal Louisiana 
Integrated Flood Risk Reduction and Coastal Restoration Study.
    Addressing the needs of this important region, especially 
in the area of managing flood risk, will require the shared 
efforts of our local, State and Federal partners. The men and 
women of the U.S. Army Corps of Engineers, New Orleans 
District, are residents of South Louisiana. Their friends and 
families live here; they maintain active roles in their 
communities. For them, working with our partners to ensure a 
promising future in coastal Louisiana is not just a 
professional responsibility; it is a personal commitment.
    Mr. Chairman, thank you for allowing me to testify before 
you this morning. I will be happy to answer any questions you 
may have. Thank you.
    [The prepared statement of Colonel Hansen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Vitter. Thank you, Colonel. Thanks for your work 
and that of all of your colleagues in the Corps. Thanks for all 
of your ongoing leadership and work, and thanks for being here 
today.
    You mentioned that you think the greatest vulnerability, 
danger of our new system is complacency. After that, in terms 
of if you look at the physical post-Katrina system, what would 
you say are the three top vulnerabilities or gaps of any kind 
and what is the Corps doing to address those?
    Colonel Hansen. Well, Senator, first, I will say that the 
Corps greatly values your leadership in the development and 
passage of the Water Resources Reform and Development Act of 
2014. That does represent significant progress in advancing 
many water resources projects around the country, including 
here in the Greater New Orleans area.
    Correct, I did mention complacency among citizens, that we 
don't want to develop a feeling or a belief that you can stay 
in the city for any Category 1 or any Category 2 hurricane; you 
don't have to evacuate until they reach a Category 3. That 
would be an incorrect way of thinking. Any hurricane could be 
dangerous regardless of its category.
    For example, Hurricane Isaac was a Category 1 storm, but 
very wide and very slow moving. It pushed a lot of surge in 
front of it. There's a lot more factors to wind speed than 
category.
    But, Senator, to talk about other vulnerabilities, as you 
mentioned in the slide you showed, in your presentation, we are 
presently armoring many miles of the earthen levees around the 
system.
    Of that 133-mile perimeter, approximately 80 miles are 
earthen levees, and one of the lessons learned from Katrina is 
that levees need to be resilient to potential overtopping. So 
we are going back, now that those levees have been constructed, 
and we are beginning to place high performance turf matting and 
then grass over the top of those levees.
    And our tests have shown that--we tested cross-sections of 
grass with that matting, at 40 times what we had said is the 
initial limit for overtopping, and we found no failure and no 
sign of erosion in levees that were protected with that 
armoring mat. So armoring makes levees much more resilient to 
an even larger storm, a 300-year storm, a 500-year storm.
    So delaying that armor, if we do not move forward with that 
armoring, it does represent somewhat of a vulnerability. The 
system is capable of performing to a 100-year level storm, but 
if there were an even larger storm and the system was not 
armored, the levees could be potentially subject to damage from 
erosion from significant overtopping.
    Senator, it's difficult to categorize or kind of rank other 
vulnerabilities, but obviously maintaining the system long-term 
requires a system-wide approach and really sharing of resources 
throughout the system.
    You know, if levee lifts in one area need to be performed 
before another area--right now levee districts are limited in 
their ability to share resources and share funds, and that is 
going to, in a degree, is going to limit the system-wide 
approach to maintenance in the future, so I would consider that 
somewhat of a vulnerability.
    You know, beyond that, I know that, you know, you're going 
to want to talk about the West Closure Complex and the surge 
barrier. Some of these large structures are very big. They are 
expensive to operate and maintain, and it takes resources on 
behalf of, you know, the non-Federal sponsor, the local levee 
districts and the Federal Government. And so, you know, the 
question is whether those resources will continue to be 
adequate in the future to maintain those structures, and I'll 
say that we have to continue to operate as a team and be 
committed to approaching that, you know, with the best plan 
possible.
    Senator Vitter. Great. Well, that leads to our discussion 
of that O&M issue, and I appreciate your kind words about the 
WRRDA 2014 bill that I helped draft and pass, but you can tell 
your superiors that rather than kind words, what I really want 
is simply the Corps to follow the law in regard to that. And 
we've had this meeting and discussion many times, but the Corps 
isn't.
    I mean, WRRDA 2014 has crystal clear language that the 
Corps has a responsibility to perform operation and maintenance 
on the IHNC Surge and Barge Sector Gates, on the West Closure 
Complex and on the Harvey Canal Sector Gates, and that the cost 
share is 65 Federal and 35 local.
    I have a few questions about this, but let me start with 
this. Is there anything in that WRRDA language that you think 
is unclear or ambiguous?
    Colonel Hansen. Well, Senator, the WRRDA 2014 legislation 
is clear in assigning responsibility to the Secretary of the 
Army for operating and maintaining the structures that you 
named, and that is the correct list from our analysis, at 65 
percent Federal and 35 percent non-Federal expense.
    Senator Vitter. OK. So the obvious next question is why 
isn't--we're less than 2 weeks away from the start of hurricane 
season. So why isn't the Corps doing that?
    Colonel Hansen. Senator, the Corps has not ignored the 
authorization and plans to comply with the statute should 
operations and maintenance funding be provided. You know, 
specific appropriated funds were not provided for this purpose, 
but we've had this discussion as--and, you know, Congress did 
provide the Corps with an additional $1 billion in 
discretionary operations and maintenance funding for 2015.
    And, Senator, again, the Corps of Engineers and all the 
non-Federal sponsors and stakeholders that operate projects 
across the country are very grateful for that additional 
funding. It helps the Corps address critical backlog 
maintenance needs across the country, including here in 
Louisiana.
    But this national backlog and deferred maintenance of 
structures and facilities and navigation channels across the 
country is $140 billion, so even with the additional $1 billion 
in discretionary funding--and, again, it's very useful and very 
welcomed--there are very hard choices to make and many, many 
critical needs still remain unfunded. And, regrettably, with 
demands exceeding the limited resources, no funds were 
allocated for the Federal share of the O&M for the HSDRRS fuel 
tax waterway structures.
    Regarding a path forward, if discretionary O&M funding is 
provided to the Corps in Fiscal Year 2016, I cannot commit the 
Corps to a particular decision, but the critical nature of 
these structures is well understood and it will receive very 
careful consideration.
    Senator Vitter. So basically your answer is, we're not 
doing it, even though it's clearly our responsibility, because 
we don't have the money to do it?
    Colonel Hansen. Senator, as you know, the two steps that 
are required are the authorization and the funding, and, again, 
within that discretionary funding that was provided, you know, 
with the immense backlog of maintenance in structures, this was 
one of the needs that was not able to be funded.
    Senator Vitter. So you know how the process works. The 
Corps, through the administration, submits a proposed budget to 
Congress. Did the Corps ask for that money?
    Colonel Hansen. Senator, I am not, you know, fully aware of 
every step in the budget process. I know it was actively 
considered in the fiscal year '15 work plan allocation of that 
O&M funding, but I can't offer, you know, whether or not it was 
in the 2015 budget. The implementation guidance of that 
particular section of WRRDA did arrive late enough in the 2016 
President's budget development process and it was not included.
    Senator Vitter. So, again, I'm trying to cut through to the 
core, the responsibility is crystal clear that it's at the 
Corps. The Corps has not even asked for the money, and to 
piggyback on your comments about the billion dollars, the Corps 
was given an extra billion dollars for various O&M needs. And I 
know you have way more O&M needs than that. But you were given 
a billion dollars, with no direction, and the Corps chose not 
to use a penny of it for this mandated responsibility, is that 
correct?
    Colonel Hansen. That is accurate, Senator.
    Senator Vitter. OK. Well, I just think that's inexcusable, 
and I know it's a decision by your superiors, and I know that 
the district actively asked for the money, but the 
responsibility is crystal clear, and for the Corps not to meet 
the responsibility, not to even ask for the money to meet the 
responsibility, and to be given a billion dollars which could 
be used for the responsibility, and not to use a penny, I 
think, is ridiculous, quite frankly.
    So, as you know, we're not going to drop this issue, and I 
can tell you, if I have anything to do with it, as the next 
Governor, my direction, in January, is going to be very simple 
to the local authorities. It's going to be to drop off the keys 
to these three structures at the Corps office, literally, drop 
off the keys. We will send you a monthly check for our 35 
percent and it's going to be on you. So y'all have between now 
and January to figure it out, but that's what's going to 
happen.
    Let me move to levee lifts, which is another really 
important issue. Before Katrina, in the construction of our 
protection system, future levee lifts to bring the system back 
up to required height, after subsidence, was part of the 
design, was part of the authorization.
    That was not built into the design and authorization of 
this new system, so that now, as subsidence happens, and we 
need to periodically do levee lifts--and that's normal; I mean, 
that's part of any levee system, as you know--the Corps is 
saying, ``Oh, not on us. It has to be a 100 percent State and 
local burden.'' That was never the case before. It's always 
been built into the system. It's always been the same cost 
share, which is 65 percent Federal, 35 percent State. So why 
did that change with this new system?
    Colonel Hansen. Senator, again, a very important issue, and 
Congress directed the Corps of Engineers to build a 
comprehensive risk reduction system for the Greater New Orleans 
Area that would provide a 100-year level risk reduction and 
could be accredited by FEMA, under the National Flood Insurance 
Program, and the Corps accomplished that and completed initial 
attainment by September 2011, and then in February 2014, the 
system was formally accredited by FEMA, and FEMA is in the 
process of updating the Digital Flood Insurance Rate maps that 
are applicable to the National Flood Insurance Program.
    And, Senator, you are correct, the authorizing legislation 
for that system and for that project was silent on future levee 
lifts.
    And then, Senator, again, you know, with your leadership 
with the Water Resources Reform and Development Act passage, 
Section 3017 of that Act does provide additional guidance on 
future levee lifts for the Hurricane and Storm Damage Risk 
Reduction System. It does require that the Secretary of the 
Army determine that future levee lift work, to address all the 
steps that caused the levee to settle, consolidation, 
settlement and subsidence, that if future levee lift work is 
technically feasible, environmentally acceptable and 
economically justified.
    And as you know, Senator, that requires a decision 
document. In this case, it would be a General Re-Evaluation 
Report, and that would be conducted with investigation funds, 
under a cost-sharing agreement.
    Senator Vitter. OK. Basically, to summarize for folks here, 
that means we have to go through all of this rigmarole study 
that's going to be long and drawn out and may not even get to a 
``yes,'' to do regular levee lifts that, prior to Katrina, were 
always built into the system.
    And so what we have going on is normal subsidence that is 
bringing the system below the design level, below the 100-year 
level, with no appropriate plan involving the Corps to remedy 
that, on a regular basis, and, again, this is really 
unacceptable.
    To date, isn't it true that the Corps has performed some 
lifts on levees within the system, like in St. Bernard Parish?
    Colonel Hansen. Senator, in constructing a levee, you know 
that there's a lot more to a levee reach than just the earthen 
levee itself. Oftentimes, there are some loose gates, you know, 
concrete slope paving in sections of floodwall, and so in the--
and then we establish a good quality turf or a strong turf on 
the levee before we turn it over to the non-Federal sponsor.
    And you're right, Senator, the conditions that cause levees 
to settle are very dynamic here in south Louisiana. There have 
been cases where, as we go through the several-year 
construction process of a large levee and get to the point of 
establishing turf and we go out and do our surveys, we find 
that it has settled small amounts below the initial design 
elevation.
    And so in those cases, Senator, before--we have always made 
sure that before we turn a levee over to the non-Federal 
sponsor, to the State and the levee district, that it is above 
the design grade.
    So there have been cases where we went out, we have gone 
back out and done limited lifts. In 2012, the Corps actually 
did lifts on eight different reaches before turning them over 
to the non-Federal sponsor. Once that turnover process is 
complete, then it falls into the category, Senator, as we're 
discussing now.
    Senator Vitter. OK. Well, again, I just want to highlight 
the concern. Over time we have this subsidence, and as it 
stands now, the Corps is walking away from any responsibility 
to help us keep the system at the design level. That was never 
the case before, never, ever. It was always built into the 
design and authorization that the Corps, 65/35, same cost share 
as normal, would do those regular lifts to keep the system up 
to its design level.
    OK. I think, Colonel, that goes through my main areas that 
I wanted to focus on. We have a second panel, so I do want to 
give them ample opportunity, but thanks very much for being 
here today.
    Colonel Hansen. Well, thank you, Senator, and again, thanks 
for your leadership.
    [Applause.]
    Senator Vitter. And if I could ask our second panel to come 
up and be seated, and as they do, I will be introducing them.
    We're really pleased to have four experts and individuals 
from the local area. First, Mr. John Monzon, P.E., Regional 
Director of the Southeast Louisiana Flood Protection 
Authority--West. That's the main levee board on the westbank 
and John is the head of it. Prior to serving in that capacity, 
John was Operations Division Chief with the Louisiana Coastal 
Protection and Restoration Authority, which was responsible for 
oversight and technical review of all of this work at the State 
level, and he was also CPRA liaison between the levee districts 
and the Corps for levee accreditation.
    We also have Todd Murphy, President of the Jefferson Parish 
Chamber of Commerce. Todd has served as the President for the 
past 3 years and represents businesses in the largest parish in 
the New Orleans region, in terms of population, a number of 
businesses and a number of jobs. Prior to leading the Chamber, 
Todd served as Senior Vice President of Omni Bank and Iberia 
Bank for 13 years, where he guided new business development and 
government relations.
    Bob Turner is Regional Director of the Southeast Louisiana 
Flood Protection Authority--East, so that's sort of the main 
levee board on the east bank. And Bob is a Registered 
Professional Civil Engineer with 30 years' experience in 
engineering. In 2007, Bob was appointed to his position and 
charged with oversight of flood protection for all or part of 
five parishes surrounding Lake Pontchartrain and the governance 
of the Orleans, East Jefferson and Lake Borgne Basin Levee 
Districts. Bob has an extensive background in hurricane and 
flood protection.
    And last, but certainly not least, is Shirley Laska, Ph.D., 
Professor Emerita, Sociology, at UNO. Dr. Laska is a 
Profession, Emerita, of Sociology and Founding Past Director of 
the Center For Hazards Assessment Response and Technology at 
UNO. It's called UNO-CHART. She's been conducting applied 
research on natural and technological hazards and disaster 
response for 30 years and her work includes studies on 
residential flood mitigation, hurricane response, coastal land 
loss effects, coastal fisheries and many other topics.
    Thank you all for being here. More importantly, thanks for 
all of your ongoing work in this area, and we'll hear 5-minute 
testimony from each of you, in the order that I introduced you, 
starting with John.

STATEMENT OF JOHN R. MONZON, P.E., M. ASCE, REGIONAL DIRECTOR, 
      SOUTHEAST LOUISIANA FLOOD PROTECTION AUTHORITY--WEST

    Mr. Monzon. Good morning, Senator Vitter----
    Senator Vitter. Good morning.
    Mr. Monzon [continuing]. Chairman Vitter, and members of 
the committee. Thank you for giving me this opportunity this 
morning.
    As you stated earlier, I am the Regional Director of the 
Southeast Louisiana Flood Protection Authority--West. We are in 
charge of two levee districts on the Westbank, of the Greater 
New Orleans area, namely the Algiers and West Jefferson Levee 
Districts.
    The SLFPA-West oversees the operation and maintenance of 
over 100 miles of westbank and vicinity levees, including 33 
miles along the Mississippi River and 67 miles of hurricane 
protection levees.
    The Westbank Hurricane Protection Project began in 1986, 
when Congress secured authorization and funding to have the 
United States Army Corps of Engineers build the Westbank 
Hurricane Protection Levees, starting at Westwego to the Harvey 
Canal.
    The entire Westbank and Vicinity System was incomplete at 
the time that Katrina made landfall on the shores of Louisiana. 
If Hurricane Katrina had shifted over to the west and made its 
way up Barataria Bay, the entire westbank would have flooded.
    Based on lessons learned from levee and floodwall failures 
in the New Orleans area that were caused by storm surge, the 
Corps of Engineers received appropriations from Congress to 
design and build the HSDRRS features on the Westbank and 
Vicinity Projects.
    In the nearly 10 years since Hurricane Katrina has passed, 
the Westbank and Vicinity Projects are now nearly complete and 
the citizens inside this system have the best level of 
hurricane protection they have ever experienced.
    While there were some good outcomes from the construction 
of the Westbank and Vicinity HSDRRS projects, there were a 
couple of hardships along the way.
    One of the hardships was caused by the June 1st, 2011 
deadline to finish the HSDRRS. There were contractors that were 
aware of this deadline and used it to their advantage when 
negotiating change orders. In some cases, the deadline created 
sloppy construction practices and an environment where quality 
control was lacking.
    Such was the case on the WBV 14c.2 Project where the 
contractor stretched the limits of blending in the soil 
specifications and caused an inordinate amount of woody debris 
in the levees. Eventually the Corps did agree to a task force 
that investigated the effects of the woody debris in the 
levees.
    On the positive side, as a lesson learned, the task force 
recommended a compromise in which parts of the levee that had 
the most woody debris were capped with additional clean clay. 
It also recommended that the soil specifications be amended to 
limit the amount of organic material and better define the 
allowable blending process.
    Some of the sloppy construction could have been averted if 
the construction contracts would have included provisions for a 
timely halt in construction in order to give the non-Federal 
sponsor and local sponsors an opportunity to seek corrective 
measures from the Corps. Also, contracts should have had a 
considerable retainer, in the amount of 10 percent or above, 
and those retainers should not have been paid until the Federal 
and non-Federal sponsors were satisfied that the contract is 
complete and finished according to plans and specifications.
    A second hardship that was encountered along the 
construction process was caused by the division of the HSDRRS 
projects between the Hurricane Protection Office, HPO, and the 
Protection and Restoration Office, the PRO. There were 
inconsistencies in construction practices and design waivers, 
such as the use of uncoated steel piles and the lack of 
cathodic connectivity between the piles.
    An expert review panel on the Greater New Orleans HSDRRS 
design guidelines concurred that the use of sacrificial steel 
is not a good practice in this region.
    Most of these issues occurred on the Lake Pontchartrain and 
Vicinity projects managed by the HPO office and will arguably 
add maintenance costs over the life of the projects. For 
consistency, all future projects should be operated out of one 
office.
    Some well-intended specification changes during 
construction created other hardships. In order to build 
stronger earthen levees, the soil specifications were changed 
to increase the clay content and decrease the organic content.
    This created a problem in establishing a grass cover on the 
levees, because the clay was too hard to allow the root mass to 
become established and the soil did not contain enough organic 
material to encourage root growth. This became a problem 
because levees without grass cover are susceptible to erosion 
during rain events. In some cases, the contract was considered 
complete without adequate turf establishment.
    The projects were turned over to the non-Federal sponsor 
where the Corps had to take corrective measures with hired 
labor forces. This wound up costing more time and money. In the 
future, specification changes should be vetted by the non-
Federal sponsor prior to wholesale changes.
    In conclusion, the Westbank and Vicinity is better prepared 
against storm surge from tropical events. The West Closure 
Complex has closed the entry point of storm surge into the 
Harvey and Algiers Canals and has reduced potential flooding in 
these basins.
    The cost to operate, maintain, repair, rehabilitate and 
replace this $1 billion facility is approximately $3 million 
per year. This is a heavy burden to the local sponsors without 
Federal participation.
    Most of the HSDRRS projects are complete, with the 
exception of some project modifications and armoring. The Corps 
was mandated to provide resiliency to the system for storm 
events greater than the 100-year storm.
    The Corps chose to use armoring products to provide this 
level of resiliency, in lieu of additional height. These 
armoring products were tested at the University of Colorado and 
proved to be effective in providing erosion resistance from 
overtopping events. However, the system is still susceptible to 
overtopping and flooding will still occur, depending on the 
size of the storm. There are homes and places that will flood 
again.
    Moreover, the recently awarded armoring contracts have 
indicated that it will cost as much to armor the levees as it 
will cost to raise the levees an average height of 2 feet.
    The Corps has also indicated the future costs to lift and 
armor these levees will be the responsibility of the non-
Federal sponsor.
    Future costs to lift and armor these levees should be cost-
shared between the Corps and the non-Federal sponsor, as 
stipulated in the WRRDA bill, at a 65/35 percent cost share.
    We are hopeful that recent mandates in the 2014 WRRDA bill 
will bring some relief to the local sponsors as we begin to 
operate, maintain and repair, rehabilitate and replace the 
Westbank and Vicinity projects.
    Again, thank you for giving me this opportunity.
    [The prepared statement of Mr. Monzon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
           
    Senator Vitter. Thank you very much, John. Now we'll hear 
from Todd Murphy.

 STATEMENT OF TODD P. MURPHY, PRESIDENT, JEFFERSON CHAMBER OF 
                            COMMERCE

    Mr. Murphy. Thank you. Good morning, Senator Vitter----
    Senator Vitter. Good morning.
    Mr. Murphy [continuing]. And members of the Committee on 
the Environment and Public Works and, of course, the public, 
that have come out to this beautiful facility.
    My name is Todd Murphy, and for the last 3 years, I've 
served as President of the Jefferson Chamber of Commerce. As 
Senator Vitter mentioned, we represent businesses in the 
largest parish in the region, centrally located, in the middle 
of the region, and we represent the largest number in terms of 
population; number of businesses and number of jobs.
    As a lifelong resident of Jefferson Parish, I can attest to 
the climate of work and life before, during and, of course, 
after Hurricane Katrina. We thought we had stress every day, 
from everyday work routines and everyday challenges of life. 
Then comes a nearly 60-day evacuation, for most, from the area 
and many more months and years of inconvenience and aggravation 
to the life in which we knew.
    The people and businesses of the region simply prevailed 
through the adversity, and many got very creative in how to 
reopen business to best serve the public.
    [Off microphone] a professional banker at the time, our 
bank joined two dozen other banks to jointly open in locations 
that met the usually basic requirements of safety, 
accessibility, electricity, and, of course, air conditioning, 
which is necessary in mid-September in south Louisiana.
    Approved by the Louisiana Office of Financial Institutions 
and supported by local, State and Federal regulatory and 
security agencies, 14 locations were opened in our parish, each 
housing three to five respective banks.
    So a bank branch opened and operated at Bank A, and, for 
example, each teller line was a different bank. You had a Bank 
A, a Bank B, Bank C, Bank D, and we did this throughout the 
parish. Proper marketing was done through radio and signage to 
make sure all customers were properly provided for. This went 
on for about 4 weeks and was certainly an example of 
collaboration at its best.
    And I mention this because today, as we continue to watch 
storms and prepare for storms, industries like banking, like 
health care, like financial services, are all still 
collaborating and working to be prepared, working through our 
Chamber of Commerce in Jefferson Parish and other regional 
organizations to be prepared and to collaborate through these 
potential storms.
    In fact, as we would see in the years to come, our area 
would rely on collaboration, as noticed above, and, of course, 
the resiliency of its people. And the result has been an 
evolution of stronger, more efficient businesses built with 
loyal and passionate employees.
    The number of restaurants in our areas alone has more than 
doubled, and tourism and air travel have reached their 
respective numbers, before Katrina. Retail, services and 
manufacturing are all strong.
    We still have storm threats, and as most recent as 2012, a 
5-day evacuation. Yet, today we have more confidence in the 
levee system that has been rebuilt and understand the need to 
do more for the coastal communities.
    Water management is actually now Southeast Louisiana's 
second largest industry sector, which has added more jobs than 
any other sector since 2010. The State of Louisiana and Greater 
New Orleans have been more proactive around the resiliency 
issue than perhaps any other region in the country.
    Moreover, a few points on this resiliency. Resiliency is an 
existential issue. Without proactive strategies to manage and 
combat environmental threats, the post-Katrina gains in the 
Greater New Orleans area from new real estate developments to 
jobs and industry will be lost.
    Ecosystem restoration is economic development. Diversifying 
an economically promising industry sector is arising from local 
firms' constant response to local disasters.
    And finally, the success of Greater New Orleans equates to 
the success of the Nation. At the mouth of the Mississippi 
River, supporting one of the Nation's largest deltas and most 
significant energy strongholds, Greater New Orleans strengths 
and weaknesses are felt nationally.
    As a clear outcome of the extraordinary manmade and natural 
disaster of the last decade, Greater New Orleans serves as a 
model for the country in innovative policies, plans, 
leadership, work force and industry development, and 
infrastructure investment around resiliency.
    In fact, Louisiana-based firms have received over $327 
million in State and Federal prime contracts related to 
Hurricane Sandy response, recovery and rebuilding.
    I'd like to close by thanking Senator Vitter for this forum 
and members of the Senate Committee on Environment and Public 
works for allowing me to testify today on such short notice.
    It is critically important for the businesses and residents 
of this region and Louisiana to have adequate protection 
against catastrophic storms and storm surge so that we're able 
to foster and grow a vibrant local and State economy.
    Thank you very much.
    Senator Vitter. Great. Thank you, Todd, very much. And next 
we'll hear from Bob Turner, Regional Director of the Southeast 
Louisiana Flood Protection Authority--East. Bob, thanks.

 STATEMENT OF ROBERT A. TURNER, P.E., CFM, REGIONAL DIRECTOR, 
      SOUTHEAST LOUISIANA FLOOD PROTECTION AUTHORITY--EAST

    Mr. Turner. Good morning, Chairman Vitter.
    Senator Vitter. Good morning.
    Mr. Turner. Thanks for the opportunity to be here today to 
talk about our flood defense system in advance of this year's 
hurricane season, and also, you know, personally, I want to 
thank you for being such a strong advocate for flood protection 
in our area.
    The new Federal levee system is far better than the system 
we had before Hurricane Katrina, and today I'm happy to report 
that it is being well-maintained and it is in good condition.
    But to keep the system performing to the level authorized 
by Congress, there is still plenty of work that needs to be 
done. You see, our levees were designed be periodically lifted 
to sustain required elevations through the life of the project.
    In a Corps memorandum, General Peabody wrote, and I quote, 
``Without additional levee lifts, the expected consolidation, 
settlement and subsidence and sea level rise will cause levee 
reaches within the system to fall below the required elevation 
necessary to provide 1 percent risk reduction as early as 
2016.'' And he went on to say that the system will no longer 
meet NFIP accreditation criteria when the first levee reach 
settles below the required elevation.
    Now, it's important to note that the Project Partner 
Agreement, signed by the Corps and the non-Federal sponsor, 
excludes such lifts from the maintenance responsibilities of 
the non-Federal sponsor. So it certainly stunned local partners 
when Corps attorneys claimed existing law did not allow the 
Corps to construct periodic levee lifts and share the cost with 
local partners, as had been done historically by the pre-
Katrina Federal levee system.
    Surely, it was not the intent of Congress or the Corps to 
build a $14 billion Federal levee system such that it would 
provide the authorized level of protection for less than 5 
years.
    More recently, provisions were included in WRRDA 2014 to 
address this critical issue. It authorizes the Corps to 
construct periodic levee lifts with a 35 percent non-Federal 
cost share, provided a General Re-Evaluation Report, or GRR, 
finds that the work is technically feasible, environmentally 
acceptable and economically justifiable.
    It is imperative that the GRR be completed as soon as 
possible, but we realize that Corps reports and congressional 
appropriations take time. But some of our levee segments in the 
system will fall below authorized heights within the next 2 to 
3 years.
    So we are considering lifting some levee segments in 
advance of the Corps armoring effort to both maintain the 
required levee heights and avoid wasting tens of millions of 
dollars on armoring that must be removed and replaced as part 
of any levee lift.
    We would ask, at least, to receive project credits for the 
local funds that we use to lift those levees, before the 
required the Corps report is complete, and Federal funds can be 
appropriated for the needed lifts.
    WRRDA 2014 also designates responsibility to the Corps to 
operate and maintain the sector gate and barge gate across the 
Gulf Intracoastal Waterway, at the surge barrier, with a 35 
percent cost share for the non-Federal sponsor. But the Corps 
has informed us that they will not begin operating and 
maintaining those structures until funds have been appropriated 
for that purpose.
    So in the absence of the Corps, we are taking care of those 
facilities for the time being. Local funds expended to fulfill 
the Federal responsibility to operate and maintain and repair 
those structures should be reimbursed by the Corps to the non-
Federal sponsor, or at least used to offset the 35 percent cost 
share required for the future work.
    Our new system is definitely large and most definitely 
complicated, so it's not unusual for engineers to occasionally 
disagree on complex design decisions.
    For example, early in the design phase, the St. Bernard 
Parish T-walls, our non-Federal project team expressed concerns 
regarding the adequacy of the Corps design, of the steel pile 
foundation elements. But the Corps chose to proceed with 
construction without modifying that design.
    Then after completing construction, the Corps took a much 
more detailed look at that entire design, and although it has 
been determined that there is no immediate danger to the 
integrity of the T-walls, the Corps' latest analysis indicates 
that problems with steel piles could develop in the future.
    So their current plan is to install monitoring equipment at 
multiple locations along the 23-mile floodwall to measure 
corrosion rates and the stresses in the steel pile foundation 
elements.
    A robust monitoring program will allow for advance notice 
of developing problems so that plans and funding can be put in 
place to correct any design deficiencies.
    And we agree that a monitoring program is needed, but we 
believe the Corps should be responsible for operating and 
maintaining the monitoring equipment and collecting and 
analyzing that data. Such costs and responsibilities should not 
be transferred to the non-Federal sponsor.
    So in closing, first of all, I would like to thank you and 
your staff for all the hard work and attention you have given 
to reducing flood risk in our region, and thank you for 
allowing me the opportunity to provide this testimony.
    There's far more detail and supporting documentation in my 
written remarks, and I look forward to answering any questions 
you may have and assisting the committee in any way that you 
might find helpful. Thank you.
    [The prepared statement of Mr. Turner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
        
    Senator Vitter. Great. Thank you, Bob, very much. And last, 
but certainly not least, we'll hear from Dr. Shirley Laska.

     STATEMENT OF SHIRLEY LASKA, PH.D., PROFESSOR EMERITA, 
                   UNIVERSITY OF NEW ORLEANS

    Ms. Laska. We social scientists always feel comfortable 
being last, so it's all good. Thank you, Senator Vitter, and 
the Environment and Public Works Committee for allowing me to 
make some comments this morning.
    Achieving better risk reduction from flooding for America's 
coastal communities is a goal that can never be taken seriously 
enough. Coastal areas vary in flood risk, but each coastal 
community's safety is critical because so many societal 
services and activities occur there and such large numbers of 
our citizens live within coastal communities.
    The takeaway from my brief comments is that each coastal 
area of interconnected communities must recognize the portfolio 
of efforts available to them to reduce their risk to flooding 
and must invest their time, energy and financial resources into 
these efforts.
    The second part of the takeaway is that the portfolio must 
be implemented as part of a system of risk reduction, not as 
separate activities, and we must grow as a society in 
understanding how the pieces fit together for the best risk 
reduction and how each of us can play a role.
    I know you are familiar with the idea of a system of 
protection. The Colonel was, of course, speaking about it this 
morning. We used to consider our system just one levee and all 
of its needed parts, the types of materials to construct it, 
the shape of it, the surface protection materials. We have 
improved our understanding of systems since Hurricane Katrina.
    Now the Corps is working to implement risk reducing systems 
that include multiple levees, flood walls and pumps, how they 
function together, and are now even adding non-structural 
methods into their systems.
    St. John and St. James Parishes, and Calcasieu Parish, in 
west Louisiana, are all participating with the Corps in 
planning projects that include elements other than large 
levees--such as ring levees around clusters of houses, culvert 
flaps to prevent back flow flooding, some home buyouts and 
elevating structures.
    Where the social scientists specializing in supporting 
flood risk reduction come in is to ``flesh in'' the system idea 
to include multiple activities that, taken together, thought 
about together, modified in conjunction with one another, 
create safer coastal communities.
    A recent report published by the National Academy of 
Science gives us a clear picture of what this idea means; 
``There is a clear need for a comprehensive, tailored approach 
to flood risk management behind levees''--and I would change 
that to say ``in conjunction with levees''--``that is designed 
and implemented at the local level, it involves Federal and 
State agencies, communities, and households, takes into account 
possible future conditions, and relies on an effective 
portfolio of structural measures, nonstructural measures, and 
insurance to reduce the risk to those behind levees.'' Of 
course, in this area, we would also include coastal restoration 
in that list.
    Unfortunately, we are a long way from achieving what is 
recommended by this study. Levees give us too much confidence 
that they are all that needs to happen and too much confidence 
that we have levees high enough to give us excellent 
protection. This complacency is called ``the levee effect.''
    The protection of our New Orleans levee system today is 1 
percent risk per year, as you have heard the others say. That 
gives us a 26 percent chance of flooding in the course of a 30-
year mortgage. Even though we know these odds are still very 
seriously high, the warning falls back into our consciousness 
to a real small corner of our thinking and we simply get on 
with what's happening here and now. I think the Colonel called 
it ``complacency.''
    Those who are going to survive the next flood most 
effectively are those who don't let that happen. All of us in 
this room who are ``locals'' treasure Angelo Brocato's Italian 
Ice Cream and Pastry. The store was badly flooded in Hurricane 
Katrina. The current owner, Mr. Brocato, II, can't elevate his 
store on Carrollton Avenue because it is an historic building 
in a row of such.
    During a recent Walk and Learn event, held by the Building 
Resilience Workshop and the Stay Local Small Business 
Organization, Mr. Brocato shared his knowledge of flood 
insurance--how much to buy, what it will cover--and what he can 
do to protect his equipment beyond insurance, elevating it as 
much as possible and moving what he can't into air-tight walk-
in freezers. These efforts will enable him to be resilient.
    Mr. Gerry Fullington, the manager of Massey Sporting Goods 
store, on North Carrollton Avenue, on the Lafitte Corridor, 
also told the Walk and Learn group that his resiliency focuses 
on several activities: First, he always keeps his suppliers 
paid in full so that when he needs them to send replacement 
inventory quickly after a flood, they will. He also has a 
robust online business that will sustain the company while the 
stores are rebuilt the next time they flood.
    And finally, in the same neighborhood, the manager of the 
Gulf Coast Bank, Mr. Eric van Hoven, described how his staff 
shows all of the bank's clients how to do all of their business 
with the bank electronically so that when another flood occurs, 
the customers will be able to take advantage of the bank's full 
electronic banking services.
    Just these brief examples show the variety of risk reducing 
activities that three regular citizens of New Orleans have 
honed to reduce their business risks. They are paying attention 
to risk reduction, not letting it recede into their thinking 
and they have committed themselves to integrate different 
measures and to being part of the system of risk reduction in 
New Orleans.
    The president of the Greater Mid-City Merchants 
Association, Mr. Tim Levy, supported the Walk and Learn. We are 
hoping that such a co-teaching event will expand risk reduction 
commitments for all of their business owners so that when--and 
I didn't say ``if,'' but I said ``when''--another disaster 
occurs, the headline of The Advocate and The Times Picayune 
newspapers will read: ``Mid City Businesses; Some of the First 
to Return in Large Numbers.'' A similar goal exists for all 
business areas in the region.
    So creating a system of risk reduction effort for a 
metropolitan area is not rocket science. But unfortunately it 
is more difficult to achieve. We, as a society, don't really 
believe that we need to engage in it continually. Even we, who 
live in a metropolitan area that is fraught with flooding 
challenges and that is at the edge of the most quickly 
subsiding and inundating coast in the entire world, we do not 
pay enough continual attention.
    I will just read now the other recommended items. They are 
in my printed presentation, and that will conclude my comments.
    We should take extreme care to use post disaster funds very 
carefully for risk reduction. We should not waste a cent.
    We should buy flood insurance. We should monitor Write Your 
Own companies to encourage agents to promote flood insurance. 
And, Senator Vitter, I know that's one of your concerns.
    We should monitor banks with federally backed mortgages to 
require flood insurance on insured homes. That protects the 
entire community.
    We should get Federal subsidy for lower and middle income 
residents for skyrocketing insurance premium rates, as some of 
you mentioned earlier.
    We should recognize the importance and commit to paying 
local costs for operation and maintenance of levees. We spoke 
about that this morning.
    We should add additional elevations to the required 
building elevation. Some communities are doing it, but not 
enough.
    We should discontinue construction of slab-on-grade houses 
in surge risk areas and dense subdivisions because it's 
difficult to elevate them if they get flooded.
    We should understand the reasoning and follow the NFIP 
construction requirements.
    We should work toward achieving more safety for critical 
and public buildings, in terms of elevation, because the funds 
acquired for rebuilding them will never come to us again.
    We should demand and have implemented by the government, 
and its contractors, efficient and effective post disaster 
recovery, including mitigation, and that was mentioned this 
morning.
    We should increase community and parish participation in 
the Community Rating System.
    And finally, we should take special consideration of 
restoring storm-safe housing for lower income residents, those 
who can the least afford to return because of their income.
    So these must all be taken and work together as a system 
with the residents, with the officials, the Federal level, with 
the Congress, in order for us to hope to achieve the goal of 
being able to stay in this place, which all of us so much love. 
Thank you, Senator Vitter.
    [The prepared statement of Ms. Laska follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
           
    Senator Vitter. Thank you very much, Shirley. Thank you 
very much. Just a couple of questions. First, let me start with 
John and Bob, since they're in charge of these systems we're 
talking about.
    Besides future levee lifts, which we've talked about, 
besides the Corps responsibility to run these big structures, 
which we talked about--put those on the side--what are the top, 
besides that, what are the top two or three potential gaps or 
vulnerabilities in the system that you all are particularly 
focused on? And each of you can speak in turn.
    Mr. Monzon. I think, in general, future funding, to be able 
to maintain and operate the system, in general. The earthen 
levees--the flood protection system on the westbank is made up 
mostly of earthen levees. We have some flood walls. We had some 
other features that are not in Federal navigable waterways, 
like the WCC. We have a sector gate and a pump station that we 
inherited from the HSDRRS projects at the Bayou Segnette 
complex. That is not part of the--that is not included in the 
WRRDA bill.
    So there are other--just making sure that we have enough 
funds to adequately operate and maintain, and repair and 
rehabilitate and replace these features. We cannot go back to 
the days of Katrina where things weren't done just because we 
didn't have the funding. So the funding will be critical for 
the westbank facilities in the future.
    Senator Vitter. OK. Bob.
    Mr. Turner. Thank you, Senator. I agree request John with 
just about everything that he said. I think, you know, there's 
a couple of things that we really need to be concentrating on 
here, from my perspective, even on the eastbank, and that is, 
keeping the system to the authorized level of protection. That 
is certainly--you know, has to be one of our most important 
priorities.
    And that's going to be difficult to do if we can't get the 
Corps to participate with, you know, lifting these levees, as 
they originally, I think, intended to do, as time progresses, 
because we know that the levees are going to subside, the sea 
level is rising, and we're seeing the effects of that already.
    The other thing I think that we have, you know, we're 
looking to try to do some changes to, regards the Inner Harbor 
Navigation Canal Corridor.
    And the way that the system is set up right now, whenever 
there's a storm coming, all the vessels have to be evacuated 
from that corridor because the--a lot of the areas adjacent to 
the levees there still have the old I-walls that are still in 
place, and although they provide protection from normal water 
levels and high water levels, if they are impacted by a vessel, 
they're going to fail, and so that could potentially put some 
water into areas wherever those failures occur. And so, you 
know, we're still working with the Coast Guard and the Corps to 
try to do better planning with regards to that and trying to 
get those vessels out of there.
    We have also proposed some ideas on how to further reduce 
that risk by perhaps using some storage in the central wetlands 
to--just for a storm event, to further reduce that risk by 
lowering water levels in the corridor and in the wetlands, as a 
whole, and so those are the kind of things, I think, that we 
need to be looking at in the future.
    Senator Vitter. OK. Thank you, Bob. And Todd, let me ask 
you, you and the Chamber work on economic development all the 
time. I'm curious. As you talk to business folks considering 
some project here, whether they are from outside the State or 
whether they're more local, how often are you talking to them 
about their concerns about hurricane flood protection?
    Mr. Murphy. In almost every occasion. It's certainly a 
concern, you know, when people are looking to relocate or to 
expand. They are looking at the entire region from the 
standpoint of protection from storms, education, 
transportation, infrastructure, resources, work force. All of 
those come into play, but certainly, no one wants to expand or 
relocate only to have to pick up and run.
    Senator Vitter. And generally speaking, how often, what 
percentage of times is that a big factor leading to a decision?
    Mr. Murphy. You know, I would say that it happens on 
occasion. I think that there's so much that this area has to 
offer, that it certainly is a lure, if you will, to get 
companies here and to keep companies here.
    I mean, let's face it, people come here and they get 
hooked, and it typically takes about two Jazz Fests for that to 
happen.
    So, you know, we have a wonderful area and a lot of natural 
resources that are just abundant. But I think it is a concern. 
We saw it after Katrina. We saw several of our companies move 
north, across the lake. They're just simply tired of running. 
And so it is a concern. I think the confidence level has gotten 
better. Yet, everyone knows there is still much to be done.
    Senator Vitter. Right. OK. We're going to wrap up. In 
closing--first of all, let's give all of our great witnesses 
another round of applause. I really appreciate you all being 
here.
    [Applause.]
    Senator Vitter. Thank you for your testimony, thanks for 
all of your work. I also want to thank Messina's, that runs 
this space, and the Walnut Room. They have put up with us this 
morning and have been really helpful.
    I want to thank AV Express, Todd and his team, Gulf South 
Media, and Jim Land, our videographer, for helping us today, 
and I want to thank our hosts, who let us use the building, the 
Authority that runs the airport and related facilities. Thank 
you all very much.
    And thanks to all of you for coming out. I hope you found 
this useful, but certainly, I don't want it to be an isolated 
event. I want it to be a continuing conversation, so please 
keep this handout that you have handy. On the left-hand side of 
the page, in the blue column, is all of my contact information.
    Please use that as questions, ideas, suggestions or 
specific problems, like some of the insurance and other 
problems that we were talking about, come up, call me and my 
staff, get us involved. We work on that stuff all the time. And 
if you have those issues today, talk to us here at the table 
before you leave and we'll get your information and we'll get 
right to work on it.
    And again, this has all of my contact information, 
including our website, which has easy email access.
    As we close and as we go into hurricane season, which 
starts June 1st, I would just repeat what many of us have said. 
This protection system is important. Coastal restoration is 
important. Mitigation programs, like raising structures, are 
important, but ultimately, probably what's most important for 
each of us, as individuals and families, is personal and family 
preparedness. So take that into account and have a plan, as we 
approach June 1st.
    Thank you all very much for being here today.
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                              [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
